IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM
NO. ______
JAMES TIMOTHY COBB, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner James Cobb asks leave to file the attached Petition for Writ of Certiorari without
prepayment of costs, and to proceed in forma pauperis. Pursuant to the provision of the Criminal
Justice Act, Petitioner was previously granted leave to proceed in both the United States District
Court for the Northern District of West Virginia and the United States Court of Appeals for the
Fourth Circuit on this case.

JAMES COBB
By Counsel

______________________________
Kristen M. Leddy
Assistant Federal Public Defender

